PROOF OF SERVICE

I am over the age of 18 years old and a resident of Los Angeles California located in
Los Angeles County, a citizen of the United States of America and Civil Surgeon for
the United States Government Departments of Defense; and Immigration and
Naturalization Services.
On July 21, 2020 I personally served a copy of the Petition For Writ of Certiorari
printed onto 8.5 x 11 inch paper at request of Michael Duggan assistant to Clerk of
the United States Supreme Court in addition to his request for filing fee [$300.00]
and Word Count Certification for Petition for Writ of Certiorari served on 6/15/20.
Attorney Scott Harris
Clerk, United States Supreme Court
do Michael Duggan
1 First Street, N.E.
Washington D.C 20543

(l/i'/h

Courtesy Copy:
HONORABLE ATTORNEY GENERAL BARR
UNITED STATES ATTORNEY GENERAL
950 PENNSYLVANIA AVENUE N.W.
WASHINGTON

D.C. 20530

Executed at Los Angeles California on this the 21ST day of July in the year
2020 Of

<V‘*7Ul'l6r<#r

;

